      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




November 12, 2009

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Recipient Capability Audit of Lowcountry Community Action
               Agency, Inc. (A-04-09-03530)


The attached final report provides the results of our limited scope review of Lowcountry
Community Action Agency, Inc.’s (Lowcountry) capacity to manage and account for Federal
funds and to operate its Head Start program in accordance with Federal regulations. This review
was requested by the Administration for Children and Families, Office of Head Start, as part of
its overall assessment of Head Start grantees that have applied for additional funding under the
Recovery Act.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objective of our limited scope review was to assess Lowcountry’s capacity to manage and
account for Federal funds and to operate its Head Start program in accordance with Federal
regulations.

Generally, Lowcountry has the capacity to manage and account for Federal funds and to operate
its Head Start program in accordance with Federal regulations. We did not find any problems
concerning Lowcountry’s: financial position, project execution policies and practices,
procurement practices, controls over property, or personnel policies and procedures. However,
Page 2 – Yvette Sanchez Fuentes


we did identify certain issues concerning: oversight by the Board of Directors (Board), lack of
timely financial reporting, and physical security over its credit cards.

The Board did not exercise sufficient oversight over the Head Start program, nor did it act timely
or effectively concerning certain significant events including a complaint involving alleged child
abuse. In addition, a current member of the Board did not understand her role on the Board.
Lowcountry did not submit some of its financial reports to the Federal Government timely, and
one of Lowcountry’s credit cards was not properly signed out to a user.

Also, in its prior review, ACF noted that a contract between Lowcountry and a financial
consultant for financial services did not contain pertinent information, such as the services to be
provided, the amount to be paid, and the provisions for terminating the contract. Lowcountry
revised the current contract for calendar year 2009 to include that information.

RECOMMENDATION

In determining whether Lowcountry should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report.

In written comments on our draft report, Lowcountry disagreed that its Board did not exercise
adequate oversight over Head Start program activities but, said that corrective action would be
taken to better document in the minutes the Boards decisions. Lowcountry also included
documents with its comments that it believed would provide additional information relative to
the report’s findings.

In response to our finding that some its Federal financial reports were filed late, Lowcountry said
it obtained verbal approval from ACF to file its financial reports late. Regarding controls over
its credit cards, Lowcountry said that its controls had been strengthened to assure that credit
cards are properly signed out before release to an employee. Lowcountry’s comments and the
Office of Inspector General’s response to those comments are summarized below.

Lowcountry’s comments did not cause us to change our findings. Accordingly, we continue to
recommend that ACF consider the information presented in this report in assessing whether
Lowcountry should be awarded additional Head Start and Recovery Act grant funding.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-09-03530 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RECIPIENT CAPABILITY AUDIT OF
LOWCOUNTRY COMMUNITY ACTION
         AGENCY, INC.




                       Daniel R. Levinson
                        Inspector General

                        November 2009
                        A-04-09-03530
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to P.L. No. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services, and $356 million to award all Head Start
grantees a nearly five percent cost-of-living increase and bolster training and technical assistance
activities.

Lowcountry Community Action Agency, Inc. (Lowcountry), a not-for-profit agency, operates a
Head Start program that provides education, health, and social services to low-income pre-school
children and their families in South Carolina. Lowcountry also operates a number of other
federally funded assistance programs including a Community Services Block Grant program, an
Emergency Shelter Grant program, and a Low Income Home Energy Assistance program. In
addition, Lowcountry operates a Project Share program, which provides financial assistance
toward heating and cooling energy bills and is privately funded by South Carolina Electric and
Gas.

Lowcounty is funded primarily through Federal and local government grants. During calendar
year 2009, ACF awarded grant funds to Lowcountry totaling $2,065,549.

In addition, Lowcountry received Recovery Act grant funding for calendar year 2009 totaling
$158,883 for salary increases and quality improvement.

OBJECTIVE

The objective of our limited scope review was to determine whether Lowcountry is financially
viable and has the capacity to manage and account for Federal funds and to operate its Head Start
program in accordance with Federal regulations.

SUMMARY OF FINDINGS

Generally, Lowcountry is financially viable and has the capacity to manage and account for
Federal funds and to operate its Head Start program in accordance with Federal regulations. We
did not find any problems concerning Lowcountry’s: project execution policies and practices,
procurement practices, controls over property, or personnel policies and procedures. However,




                                                 i
we did identify certain issues concerning: oversight by the Board, lack of timely financial
reporting, and physical security over its credit cards.

The Board did not exercise sufficient oversight over the Head Start program, nor did it act timely
or effectively concerning certain significant events including a complaint involving alleged child
abuse. In addition, a current member of the Board did not understand her role on the Board.
Lowcountry did not submit some of its financial reports to the Federal Government timely, and
one of Lowcountry’s credit cards was not properly signed out to a user.

Also, in its prior review, ACF noted that a contract between Lowcountry and a financial
consultant for financial services did not contain pertinent information, such as the services to be
provided, the amount to be paid, and the provisions for terminating the contract. Lowcountry
revised the current contract for calendar year 2009 to include that information.

RECOMMENDATION

In determining whether Lowcountry should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report.

LOWCOUNTRY COMMUNITY ACTION AGENCY, INC. COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

Lowcountry disagreed that its Board did not exercise adequate oversight over Head Start
program activities but said that corrective action would be taken to better document the Board’s
decisions in the minutes. Lowcountry also included documents with its comments that it
believed would provide additional information relative to the report’s findings.

In response to our finding that it had filed some of its Federal financial reports late, Lowcountry
said it had obtained verbal approval from ACF to file its financial reports late. Regarding
controls over its credit cards, Lowcountry said that its controls had been strengthened to assure
that credit cards are properly signed out before release to an employee.

Lowcountry’s comments did not cause us to change our findings. Accordingly, we continue to
recommend that ACF consider the information presented in this report in assessing whether
Lowcountry should be awarded additional Head Start and Recovery Act grant funding.

The complete text of Lowcountry’s comments, excluding exhibits that contained personally
identifiable information, is included as the Appendix.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                   PAGE

INTRODUCTION....................................................................................................................1

     BACKGROUND .................................................................................................................1
       Head Start Program........................................................................................................1
       Lowcountry Community Action Agency, Inc ...............................................................1
       Federal Requirements ....................................................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
       Objective ........................................................................................................................2
       Scope..............................................................................................................................2
       Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATION.............................................................................3

     BOARD OF DIRECTORS OVERSIGHT ..........................................................................4
         Handling of Alleged Child Abuse............................................................................4
         Hiring of Executive Director ...................................................................................4
         Hiring of Deputy Executive Director.......................................................................4
         Responding to Office of Head Start Concerns.........................................................4
         Transportation Concerns..........................................................................................5
         Filling Vacant Positions...........................................................................................5
         Board Member Did Not Understand Her Role ........................................................5

     FINANCIAL REPORTS NOT SUBMITTED TO THE ADMINISTRATION FOR
        CHILDREN AND FAMILIES TIMELY .....................................................................5

     CONTROLS OVER CREDIT CARDS...............................................................................6

     FINANCIAL CONSULTING CONTRACT.......................................................................6

     RECOMMENDATION .......................................................................................................6

     LOWCOUNTRY COMMUNITY ACTION AGENCY, INC. COMMENTS
     AND OFFICE OF INSPECTOR GENERAL RESPONSE.................................................6


APPENDIX

    LOWCOUNTRY COMMUNITY ACTION AGENCY, INC. COMMENTS




                                                                      iii
                                         INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to P.L. No. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services, and $356 million to award all Head Start
grantees a nearly five percent cost-of-living increase and bolster training and technical assistance
activities.

Lowcountry Community Action Agency, Inc.

Lowcountry Community Action Agency, Inc. (Lowcountry), a not-for-profit agency, operates a
Head Start program that provides education, health, and social services to low-income pre-school
children and their families in South Carolina. Lowcountry also operates a number of other
federally funded assistance programs including a Community Services Block Grant program, an
Emergency Shelter Grant program, and a Low Income Home Energy Assistance program. In
addition, Lowcountry operates a Project Share program, which provides financial assistance
toward heating and cooling energy bills and is privately funded by South Carolina Electric and
Gas.

Lowcountry is funded primarily through Federal and local government grants. During calendar
year 2009, ACF awarded grant funds to Lowcountry totaling $2,065,549.

In addition, Lowcountry received Recovery Act grant funding for calendar year 2009 totaling
$158,883 for salary increases and quality improvement.




                                                 1
Federal Requirements

P.L. No. 110-134 “Improving Head Start for School Readiness Act of 2007” (the Head Start Act)
reauthorized the Head Start program and significantly revised the previous Head Start Act.
Various provisions of the Head Start Act address specific grantee activities. In addition, Federal
regulations contained in 45 CFR govern the Head Start program.

Section 642(c)(1)(A) of the Head Start Act states that the governing body “shall have legal and
fiscal responsibility for the Head Start agency.” The Board of Directors (Board) is the governing
body of Lowcountry with fiscal and legal responsibilities for administering the program.

Section 642(1)(E)(i) through (xi) of the Head Start Act describes the responsibilities of the
Board. In general, the Board is responsible for assuring “active, independent, and informed
governance of the Head Start agency.”

With respect to Policy Council actions, Section 642(c)(2)(D)(vi) of the Head Start Act states that
the Policy Council shall submit decisions it makes to the Board.

Section 647 of the Head Start Act requires agencies to disclose the amount and disposition of
financial assistance.

Federal regulations (2 CFR § 215.51(b)) require that recipients submit annual reports 90 calendar
days after the grant year and quarterly or semiannual reports 30 calendar days after the reporting
period for the grant.

Federal regulations (2 CFR § 215.21(b)(3)) require that agencies “have effective control over and
accountability for all funds, property and other assets.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to determine whether Lowcountry is financially
viable and has the capacity to manage and account for Federal funds and to operate its Head Start
program in accordance with Federal regulations.

Scope

We performed this review based on a June 19, 2009, limited scope request from ACF. We did
not perform an overall assessment of Lowcountry’s internal control structure. Rather, we
reviewed only the internal controls that pertained directly to our objectives. Our review focused
on calendar year 2009. We also reviewed some documentation for earlier periods.

We performed our fieldwork at Lowcountry’s administrative office in Walterboro, South
Carolina, during July 2009.




                                                2
Methodology

We performed a limited scope review of Lowcountry. To accomplish our objective, we
reviewed: (1) relevant Federal laws, regulations, and guidance and (2) Lowcountry’s:

      audited financial statements for 2005, 2006, 2007, and 2008;

      financial position, including performing ratio analysis of financial information;

      organizational structure and duties, including that of the Board;

      policies and procedures that address the reporting requirements and terms and conditions
       of the grant award;

      financial systems established to account for Head Start program funding;

      procurement practices;

      controls over property; and

      personnel policies and procedures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Generally, Lowcountry is financially viable and has the capacity to manage and account for
Federal funds and to operate its Head Start program in accordance with Federal regulations. We
did not find any problems concerning Lowcountry’s: project execution policies and practices,
procurement practices, controls over property, or personnel policies and procedures. However,
we did identify certain issues concerning: oversight by the Board, lack of timely financial
reporting, and physical security over its credit cards.

The Board did not exercise sufficient oversight over the Head Start program, nor did it act timely
or effectively concerning certain significant events including a complaint involving alleged child
abuse. In addition, a current member of the Board did not understand her role on the Board.
Lowcountry did not submit some of its financial reports to the Federal Government timely, and
one of Lowcountry’s credit cards was not properly signed out to a user.

Also, in its prior review, ACF noted that a contract between Lowcountry and a financial
consultant for financial services did not contain pertinent information, such as the services to be



                                                 3
provided, the amount to be paid, and the provisions for terminating the contract. Lowcountry
revised the current contract for calendar year 2009 to include that information.

BOARD OF DIRECTORS OVERSIGHT

We concluded that the Board did not exercise adequate oversight over Head Start program
activities. In some instances, significant decisions were either made or endorsed by the Board in
what appeared to be a perfunctory manner without documented debate or consideration. In other
instances, no decision was made at all concerning issues brought to the Board’s attention.

Handling of Alleged Child Abuse

The Board did not handle an incident of alleged child abuse timely. The Executive Director
informed the Board on November 25, 2008, that a child abuse complaint had been made against
a Lowcountry employee. The Board did not make a decision at that time nor did the Board
minutes indicate that the Board investigated the matter. In addition to Federal requirements,
Section 604 of Lowcountry’s policies and procedures require that major complaints from the
community be investigated and resolved by the Board or Policy Council (which reports to the
Board).

We did not find any other evidence that Lowcountry took action until July 2, 2009, after we
began our audit, when, Lowcountry dismissed the employee who was the subject of the
allegation. The Board did not act on the complaint timely.

Hiring of Executive Director

We did not see in the Board minutes that the Board officially appointed Lowcountry’s Executive
Director prior to his employment in June 2009, even though Lowcountry’s by-laws (Article XXI,
Section I) state that the governing body (Board) has the responsibility to appoint the Executive
Director. The Board minutes subsequent to the Executive Director’s hiring were not yet
available at the time we were on site.

Hiring of Deputy Executive Director

The Executive Committee minutes contained only very brief comments concerning the hiring of
the Deputy Executive Director. Although the Executive Committee approved the Deputy’s
employment, it did not document in the minutes the need for the position, the length of the
Deputy’s employment, or any reimbursement or funding method. According to Article VII of
Lowcountry’s by-laws, the Executive Committee is to report on actions it takes at the next
meeting of the full Board. We did not find any evidence of the Executive Committee’s actions in
the Board minutes.

Responding to Office of Head Start Concerns

Minutes of the Executive Committee meeting on January 24, 2009, state that Lowcountry only
received partial funding because it had six program issues and two fiscal issues that needed to be



                                                4
addressed before the Office of Head Start would provide the full grant amount. The minutes
state that information was sent to the Office of Head Start along with responses for its review
and approval.

No documentation in subsequent minutes showed that the Board followed up with Lowcountry
staff to determine whether the issues had been resolved.

Transportation Concerns

According to the November 25, 2008, Board minutes, the Executive Director said that he wanted
the caseworkers and the transportation coordinators to “sit down and map out the routes for
children being picked up and how far a driver is to go and not to go.” The Executive Director
said that children “are being signed up 5 and 6 miles out of the way and this is where our
problem comes in.” The Executive Director also said that at a Policy Council meeting, a parent
complained about a child not getting off the bus and the bus monitor not performing a complete
check of the bus before it departed. According to the Executive Director, the child was still on
the bus and was found by the bus driver, but the bus driver had not written a report about the
incident.

The Board minutes do not show that the Executive Director’s concerns were resolved. The
minutes did not mention any new or revised bus routes, parent satisfaction with actions taken to
correct the problem, disciplinary actions against the bus monitor or bus driver, or any kind of
incident report completed by the bus driver.

Filling Vacant Positions

The Head Start Director stated at a July 2008 Board meeting that they were having trouble filling
two types of positions—bus drivers and cooks—because the high schools and surrounding
programs offered higher pay. According to the Board minutes, the Head Start Director proposed
allowing one of the bus drivers to serve also as a cook assistant. The minutes do not show what
action the Board took on the Head Start Director’s proposal.

Board Member Did Not Understand Her Role

We interviewed four members of the Board. One member said that she did not have a full
understanding of her role as a member of the Board. This member has been a Board member
since February 2009.

FINANCIAL REPORTS NOT SUBMITTED TO THE ADMINISTRATION FOR
CHILDREN AND FAMILIES TIMELY

Lowcountry did not always submit financial reports to the Administration for Children and
Families timely. Lowcountry submitted the annual report for calendar year 2007 33 days late
and for calendar year 2008 14 days late. We calculated the number of days late after subtracting
the 90-day grace period allowed by Federal regulations to submit annual financial reports.




                                                5
The semiannual report for July through December 2008 was 21 days late. Quarterly reports for
January through March 2007, July through September 2007, October through December 2007,
and January through March 2008 were 7 days, 113 days, 21 days, and 2 days late, respectively.
We calculated the number of days late after subtracting the 30-day grace period allowed by
Federal regulations to submit both semiannual and quarterly financial reports.

CONTROLS OVER CREDIT CARDS

Lowcountry had nine credit cards at the time of our site work in July 2009. Lowcountry’s
accounting manual states in Section IV that all credit cards are to be stored in a safe and that any
employee needing a credit card must sign it out from the safe on a credit card log. On July 16,
2009, we found seven of the credit cards in the safe. One of the two missing cards was signed
out by an employee. The remaining card was neither in the safe nor signed out by an employee.
When we inquired about the missing card, Lowcountry officials said the card was being used by
the Executive Director for official travel to a meeting at the Regional ACF office. According to
a Lowcountry official, it was an oversight that the Executive Director did not sign the credit card
out.

FINANCIAL CONSULTING CONTRACT

ACF noted in its November 2008, onsite monitoring review that Lowcountry had a contract with
a financial consultant for calendar year 2008 that did not contain pertinent information such as
the services to be provided, the amount to be paid, or the provisions for terminating the contract.
The contract for calendar year 2009, which was signed on January 1, 2009, had been revised to
contain specific information such as the amount of reimbursement, time required, and conditions
related to termination.

RECOMMENDATION

In determining whether Lowcountry should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report.

LOWCOUNTRY COMMUNITY ACTION AGENCY, INC. COMMENTS AND OFFICE
OF INSPECTOR GENERAL RESPONSE

Lowcountry disagreed that its Board did not exercise adequate oversight over Head Start
program activities but said that corrective action would be taken to better document the Board’s
decisions in the minutes. Lowcountry also included documents with its comments that it
believed would provide additional information relative to the report’s findings.

In response to our finding that it had filed some of its Federal financial reports late, Lowcountry
said it had obtained verbal approval from ACF to file its financial reports late. Regarding
controls over its credit cards, Lowcountry said that its controls had been strengthened to assure
that credit cards are properly signed out before release to an employee. Lowcountry’s comments
and the Office of Inspector General’s response are summarized below.




                                                 6
Board of Directors Oversight

Handling of Alleged Child Abuse

       Lowcountry Community Action Agency, Inc. Comments

Lowcountry said that in lieu of Board minutes, action taken by the Executive Director against
those employees would be found in the employees’ personnel files. Lowcountry provided a
number of documents showing that it took disciplinary action concerning the alleged child abuse.
Lowcountry also said that the Board Chairman was fully advised of the incident. Lowcountry
further said that, in the future, the Board would ensure that personnel issues are resolved by the
next Board meeting and that action taken is documented in the minutes.

       Office of Inspector General Response

Our finding was not that Lowcountry management did not take action regarding the child abuse
allegation. Our finding was that Lowcountry did not provide any evidence that the Board or the
Policy Council, which reports to the Board, investigated and resolved the matter as required by
Federal regulations (45 CFR § 1304.50(d)(2)(v)) and Lowcountry’s policies and procedures.
Lowcountry’s anticipated changes should help ensure more effective Board involvement in the
future.

Hiring of Executive Director

       Lowcountry Community Action Agency, Inc. Comments

In its written response, Lowcountry provided a copy of Board minutes dated May 21, 2009.
These minutes contained comments that the Board, after discussion, approved hiring the
Executive Director. Lowcountry said these minutes were not available at the time of our site
work in July. Lowcountry said that that the agency will prepare Board minutes more timely in
the future.

       Office of Inspector General Response

At the time of our on site work in July 2009, Lowcountry provided us the May 21, 2009 minutes,
which did not include any comments about the hiring of the Executive Director. These minutes
were captioned as an “excerpt.” On August 19, 2009, about a month after completing our onsite
review, we requested Lowcountry provide us any additional information it had that pertained to
the Board minutes we had received up to that point. Lowcountry did not provide any updated
minutes prior to its response to our findings.




                                                7
Hiring of Deputy Executive Director

       Lowcountry Community Action Agency, Inc. Comments

Regarding our finding on the lack of information in the Board minutes about hiring the Deputy
Executive Director, Lowcountry said that the Board discussed the hiring of the Deputy Executive
Director in executive session and that these discussions were handled confidentially with only
brief reference in the Executive Committee minutes. Lowcountry said that, in the future, it
would include more details in Board minutes.

       Office of Inspector General Response

We did not find any comments in the Board’s minutes concerning the hiring of the Deputy
Executive Director. According to Lowcountry’s by-laws, actions taken by the Executive
Committee are to be reported to the Board. Lowcountry’s anticipated changes should help
improve the circumstances we found.

Responding To Office of Head Start Concerns

       Lowcountry Community Action Agency, Inc. Comments

Regarding our finding that Board minutes did not show that the Board followed up with
Lowcountry staff to determine whether Office of Head Start concerns had been resolved,
Lowcountry said that during the May 21, 2009, Board meeting, the Finance/Human Resources
Director advised the Board that reports submitted to the Office of Head Start Regional Office
had resolved the issues. Lowcountry said that this information was omitted from the Board
minutes and that Board minutes will be more complete in the future.

       Office of Inspector General Response

Lowcountry’s comments do not specifically address whether the Board approved the actions that
its staff took. Board minutes should reflect the Board’s decisions and any actions taken on those
decisions.

Transportation Concerns

       Lowcountry Community Action Agency, Inc. Comments

Regarding our finding that Board minutes do not show that transportation concerns were
resolved, Lowcountry said that, currently, the Board receives staff reports from department
heads. The Head Start report contains a transportation component that informs the Board of
ongoing issues. Lowcountry said that it had sent a formal response to the Regional Office (ACF)
on April 6, 2009, concerning the issues noted at a November Board meeting. Lowcountry also
said that these staff reports would now be received as information by the Board to be resolved
and that the reports would be attached to and made a part of the Board minutes.




                                                8
       Office of Inspector General Response

When implemented, the procedural changes that Lowcountry outlined in its comments should
help to ensure that actions that the Board takes are documented in meeting minutes.

Filling Vacant Positions

       Lowcountry Community Action Agency, Inc. Comments

Regarding our finding that the Board minutes did not show what action the Board took on the
Head Start Director’s proposal to allow one of the bus drivers to serve also as a cook assistant,
Lowcountry said that the action taken by the Board is reflected in the Board’s approval of the
2009 Head Start budget, which included the Head Start director’s proposal for salary increases
for bus drivers. Lowcountry said that the Board currently receives information on changes for
each new budget proposal or revision and that a copy of each Summary of Changes will be acted
upon by the Board and attached to and made a part of the Board minutes.

       Office of Inspector General Response

Although Lowcountry’s comments indicate that the Board approved bus driver and cook
positions in the 2009 budget, subsequent Board minutes do not document an approved plan of
action to fill these vacancies.

Board Member Did Not Understand Her Role

       Lowcountry Community Action Agency, Inc. Comments

Lowcountry said that the board member in question has now received formal training and that
the Board will schedule additional training for Board members as necessary.

Financial Reports Not Submitted Timely to the Administration for Children and Families

       Lowcountry Community Action Agency, Inc. Comments

Lowcountry said that the lack of a Fiscal Officer resulted in the delayed financial reporting.
Lowcountry also said that they obtained verbal extensions from ACF Region IV for submission
of the reports but failed to document these extensions. Lowcountry said that they now have a
full-time Finance/HR Director who would ensure that all reports are filed timely and that any
required extensions are properly documented.

       Office of Inspector General Response

Lowcountry’s changes should help ensure that reports are filed timely or appropriately extended.




                                                9
Controls Over Credit Cards

       Lowcountry Community Action Agency, Inc. Comments

Lowcountry said that the Executive Director was newly hired at the time he obtained the
agency’s credit card and, thus, was not aware of the requirement to sign the card out.
Lowcountry also said that new policies had been implemented to help ensure that credit cards are
properly accounted for.

The complete text of Lowcountry’s comments, excluding exhibits that contained personally
identifiable information, is included as the Appendix.




                                              10
APPENDIX
                                                                                                             Page 1 of 10


APPENDIX: LOWCOUNTRY COMMUNITY ACTION AGENCY, INC. 

                   COMMENTS 




                Lowcountry Community Action Agency, Tnc.
                        319 Wtl5hinglOn Slm:l ' P.O. Bo~ 1726 ' Walterboro, South Carolina 29<l88 ' 843-549·5576 , Fax : 843·549·2190
                        Hampton County Officc: 843_943_3561 • HcadSlan Ad",in. Qff,,:c: 843.835 ' 27611 , lleadSlan F.... ' s-I3·835-S783




    October 19, 2009


    Department of Health and Human Services
    Office of Inspector General
    Attn: Mr. Peter J. Barbera
    Regional Inspector General for Audit Services
    61 Forsyth St. SW. Suite 3T41                                                                  RECEIVED
    Atlanta, GA 30303
                                                                                                       OCT 211009

    Re:    A-04-09-03530                                                                       Office of Audit Svcs.
    Dear Mr. Barbera:

    Lowcountry Community Action Agency, Inc. has thoroughly and comprehensively
    reviewed report number A-04-09-03530 regarding the Recipient Capability Audit of
    Lowcountry Community Action Agency, Inc. The Board is please with the findings which
    determined that Lowcountry Community Action Agency, Inc. ''has the capaCity to
    manage and account for Federal funds and to operate its Head Start program in
    accordance with Federal regulations. Furthermore, the statement regarding not
                                                  N


    finding ''any problems concerning Lowcountry's: financial position, project execution
    poliCies and practices, procurement pradices, controls over property, or personnel
    poliCies and procedures, "speaks to this agencies strive for excellence in the operation
    of a quality Head Start Program. Please let this letter serve as the board's commentary
    on the validity of the facts and reasonableness of the findings presented in this report.

    I.     Finding Re: Board ofDirectors Oversight

          Agency Response:

   The Board of Directors for Lowcountry Community Action Agency, I nc. diligently
   performs its responslbilitles described in Section 642(1 )(E)(i) through (xi) of the Head
   Start Act by assuring "active, independent, and informed governance of the Head Start
   agency." Decisions are not made or endorsed without detailed staff reports, thorough
   questioning, and deliberation. The Board maintains that it was informed and acted upon
                                                      Page 1 of 7

                                   AN EQUAL OPPORTUNITY EMPLOYER
                                                                                 Page 2 of 10




the concerns and issues noted in this report. Personnel related issues are confidential;
therefore, the discussions of these types of instances are reserved for executive session
and are not placed in the minutes. The Board recognizes that minutes should at a
minimum reflect the actions taken during executive session, copies of the staff reports
received by the board, and additional details regarding the deliberation process before a
final decision is made; therefore the following corrective action will be taken:

       Corrective Action Plan:

The Board has asked the agencies Administrative Assistant to provide complete details
of all discussions, concerns, and actions taken at all board meetings. The details should
be reflected In the official minutes of Board of Directors meetings. Staff reports will be
received as Infannation by board resolution and that each such resolution will direct
that the report be attached to and made a part of the minutes of the board meeting.
Executive session actions taken will be reflected in the board minutes.


II .   Finding Re: Handling ofAlleged Chl'ld Abuse,

       Agency Response:

The Board was fully advised of the incident regarding alleged chUd abuse. The
Executive Director was charged with investigating the incident and with responding in
compliance with agency policies and procedures. Due to the Thanksgiving holidays, the
incident in question could not be investigated immediately; however, action was taken
on December 1, 2008. Subsequent actions are duly noted in the personnel file of the
employee in question. The board chairman, lawrence Shaw, was fully informed of the
actions taken. After reviewing the matter, he concluded that staff's response to the
incident was adequate and that no further board review was necessary. Please note the
attached correspondence from Mr. lawrence Shaw to the Regional Program Manager
dated April 6, 2009 regarding the situation. After subsequent communication with the
Region IV Office of Head Start and noting their disagreement with the disciplinary
actions taken in this instance, the agency's Executive Director reevaluated the Agency's
response to the actions of the employee and issued a more severe action in July 2009.

       Co"ective Action Plan:

As to personnel related issues discussed during executive session, the board, In the
future, will ensure that personnel related issues are resolved by the next official board
meeting and at the least, documented In the minutes, in such a manner as to note

                                       Page 2 of 7
                                                                                Page 3 of 10




action has been taken, but not to disclose details, but with reference to the employee's
personnel file for details. See details contained in Corrective Action Plan listed
unde r Ite m 1.
III.   Finding Re: Hiring of the Executive Director.

       Agency Response:

The Board of Director's held a Board Meeting on May 21, 2009 wherein the minutes
clearly Indicate the decision of the board to officially appoin_ _ _ _ as
the new Executive Director effective June 8, 2009. The minuTeS'orthIS'ineet'ing""W€r"e
not prepared and available for review during the onsite visit due to staffing Issues;
however, a copy has been attached for your review.

       Corrective Action Plan:

The Board has asked that the agencies Administrative Assistant prepare the minutes in
a timely fashion; not later than two (2) weeks after the conclusion of a meeting.

IV.    Finding Re: Hiring ofthe Deputy Executive Director.

       Agency Response:

The Board of Director's discussed in detail the necessity of the position, the job
description/responsibilities, terms/ length of employment, and funding method during
executive session. The discussions related to this position were defined as a personnel
matter and therefore handled confidentially. Brief comments concerning the hiring of
the Deputy Executive Director are contained in the Executive Committee minutes.
Detailed employment information is contained in the employee's personnel file.
Executive Committee minutes were presented to the full board and submitted for
adoption/approval.

       Corrective Action Plan:

Personnel related issue discussed during executive session. See deta ils contained in
Corrective Action Plans listed under Items I and III.

v.     Finding Re: Responding to the Office ofHead Start Concems.

       Agency Response:
                                                        The deleted text has been redacted because
                                                        it is personally identifiable infonnation.

                                      Page 3 of 7
                                                                               Page 4 of 10




The Board of Director's receives staff reports from department heads which are
presented during the Board Meetings. During the May 21, 2009 meeting, the
Rnance/HR Director advised the board that the reports submitted to the Regional Office
of Head Start were sufficient to resolve fiscal and programmatic issues; subsequently
the remainder of PV2009 funds was awarded to the agency. The board was made
aware of this fact at its May 2009 meeting, but this detail was not included in the
minutes.
       Corrective Action Plan :

Written staff reports presented to the board during all meetings will be received as
information by board resolution and the each such resolution will direct that the report
be attached to and made a part of the minutes of the board meeting and kept on file
for review. Seedetails contained in Corrective Action Plans listed under Items
I and III.

VI.    Finding Re: Transportation Concems.

       Agency Response:

The Board of Director's receives staff reports from department heads which are
presented during the Board Meetings. The printed Head Start report contains a
transportation component which informs the board of on-goi ng Issues related to
transportation services and resolutions. With regard to the personnel matters discussed
in this report, a formal response was sent to the Regional OffICe on April 6, 2009 by the
board chairman which both confirms the board's oversight and outlines the actions
taken. Incident reports and evidence of diSCiplinary actions are properly documented in
employee personnel files.

       Corrective Action Plan :

Written staff reports presented to the board during all meetings will be received as
information by board resolution and each such resolution will direct that the report be
attached to and made a part of the minutes of the board meeting and kept on file for
review. See details contained in Corrective Action Plans listed under Items I
and III.

VII.   Finding Re: Filling Vacant Positions.

       Agency Response:


                                      Page 4 of 7
                                                                              Page 5 of 10




The action taken by the Board of Directors as it relates to the Bus Driver and Cook Aide
issue is reflected in the Board's approval of the 2009 Head Start Grant Application which
was submitted in September 2008. The 2009 Head Start Grant Application included
budgeted salary increases for Bus Drivers and the creation of a dual role position
entitled Bus Driver/Cook Aide. The proposed changes were effective January 1, 2009.
The Board currently receives a summary of changes for each new budget proposal or
revision for existing programs which outlines: personnel changes, annual budget
variances, and key changes.

       Corrective Action Plan:

A copy of each Summary of Changes submitted to the Board of Directors will be will be
acted on by board resolution and each such resolution will direct that the Summary of
Changes presented be attached to and made a part of the minutes of the board
meeting and kept on file for review. See details contained in Corrective Action
Plans listed under Items I and III.



VIII. Finding Re: Board Member Not Understanding Her Role.

       Agency Response:

At the time of the interview, In early July 2009, the board member in question had only
been a member of the Board of Directors for five (5) months (since february 2009).
Although materials were provided which outlined the duties and responsibilities of board
members, formal training was not available unti l later in July 2009. This board member
was scheduled for and did subsequently attend the Standards of Excellence Conference
held by the Region IV Office of Head Start on July 13 - 16, 2009, which provided formal
training related to Board Governance.

      Corrective Action Plan:

Board Governance training was scheduled and held on Saturday, August 22, 2009
through the TfTA network. Board members are encouraged to attend conferences
offered by the Regional Office and State Association, The Board will schedule additional
trainings with the TfTA network as deemed necessary to instruct board members of the
boards' legal and fiscal responsibilities for administering the program.




                                      Page 5 of 7
                                                                                Pa ge 6 of 10




IX. 	   Finding Re: Financial Reports not submitted to the AdministrcJtion for Children
        and Families Tlme/y.

        Agency Response:

lowcountry Community Action Agency, Inc. did not have a Fiscal Officer In place from
June 2007 through May 2008 due to human resources recruitment issues. In the
absence of a FIscal officer, the agency secured the services of a Financial Consultant to
ensure the submission of required reports. The agencies Executive Director
communicated reporting issues verbally with ACF Region N Fiscal Speclallst,. _
subsequently receiving a verbal extension for the submission of the annual, semi­
annual, and quarterly reports cited in this report. We regret that we do not have written
documentation of these extensions in the agencies records.
        Corrective Action Plan :

Lowcountry Community Action Agency, Inc. has hired a full-time Finance/HR Director as
of May 26, 2008. All subsequent reporting has been filed timely with the Administration
for Children and Families. The agency will ensure that all reports are filed timely and
that any required extensions are property evidenced with written communication.



X. 	    Finding Re: Credit Cards Controls.

        Agency Response:

The Board acknowledges two areas of weakness with the Implementation of its policy
regarding credit cards.

           1. The New Executive Director who was hired on June 8, 2009, was not
              aware, at the time of the compliance audit, of the policy requiring that
              agency credit cards be signed out via a log before securing it from the
              fiscal department's safe.

           2. The agency's credit card log has been maintained in the administrative
               area for employees to sign out the cards. Once the log was completed,
               the Administrative Assistant contacted the fiscal department and
               requested someone from the fiscal department bring the credit card from
               the safe to the employee In the administrative area. The fiscal staff would
               then issue the card to the employee without physically verifying the log.

                                       Page 6 of 7
                                                                               Page 7 of 10




       Corrective Action Plan:

To ensure that credit cards are properly signed out before release to an employee, the
credit card log has been moved to the fiscal department. The Administrative Assistant
informs fiscal staff when an employee desires to sign out an agency credit card. The
fiscal staff removes the card from the safe and walks the card and the credit card log
out to the administrative area. The fiscal staff ensures that the log is completed before
physically releasing the card to the employee. Cards are returned through the same
process.


Thank you for providing the board the opportunity to comment on the compliance
findings. If you should have any additional questions, please feel free to contact me.




ve:;~~~
~e        Shaw, Chairperson
Board of Directors

Enclosures: 

letter from _ _ Shaw to the Regional Program Manager dated April 6, 2009 





                                       Page 7 of 7
                                                                                   Page 8 of 10




     LOWCOUNTR Y COMMUNITY ACTION AGENCY, INC. 

           BOARD OF DIRECTOR 'S MEETING 

                    MAY21 ,2009 





Board membersabsent: _ _ and _ _

Meeting called to order

In vocation

_ _ _ stated that we are currentl y in our cooling program and onc of the
:~~uiring is that the contractor who is installing the heating and cooling
unit they have fo perform manual J calculation. She sbted what that was, is that the
contractor test for leakage in the housing and it helps determine what type of unit should
be installed.

_ _ stated that she spoke with the weatherization penon from Charleston
~un~an Service who does weatherization in Colleton County and he told her that
it would cost the agency to have a contractor to go out and do the manual J calculation
and plus we would have to have someone instaJl lhe units. _ _ stated Ihat the
price on the unit has been increased 10 SSOOO.

_ _ stated thaI she explained to the weatherization person that we have to have
rnree~ the units and he informed her that if the boan:1 could waive the S500 limit
for bids and go wi th the state limit ofS5000 it shouldn'l be a problem to select oneor two
contractors 10 do the all of the installation as well as the manual J c alculation and this
would save the agency some money. _                    slated that this waive would only
affect the cooling and heating program.

After a lengthy discussion _ _ made a motion to waive the $500 to allo"lllillll
_         to go with the sla're"'l"l~OOO in order for the air conditioner unilS toP
~ ~ do the manual J calculation. _ _ seconded the motion. The
mohon earned.

_ _ slated that they received the final stimulus amount for the eSBa Program
"tn3't:OWcOiintry eAA will receive S341 ,2 19 and this budget is due one Juoe 5, 2009 and
it will require board approval. The budget will go from July I, 2009 through September
30, 2010 and with th is budget we can work with the clients up to 18 months to help them
become stabilized.
                                                                                      Page 9 of 10




 _ . stated thai if there we no more ques tions he would move on '_ _
 repon.

_ _ staled to the board that they received a stimulus package from the
government which included Head Sian Pennancnt COLA, ARRA COLA and Quality
Improvement funds. _ _ _ Sialed that s he met with the Fiscal Officer, two
Policy Council mem~~anagemenl staff and here were some of the things that
they thought the program needed.

_ _ slated thai they needed eight computer worlr:: stations seven printers, smart
bO""'~classroom, children computer tables, a science cetller with microscopes
and book shelves, air conditioners for buses and telephone systems for the classrooms so
thai they can communicate with the teacher without have [0 walk. down the hall, building
main tclllwce and repairs at Cottageville and building maintena.nce for the Health Service
center to service the children. _ _ _ stated tha_                   would go over the:
amount of what all or Ibis wi l~~

_~ presented the Head Start Supplemental Budget to the Board she stated
~Trccei ved to two cost of li ving increase which one wi ll be permanent
increase and one would be tcmporary. She stated that the permanent COLA increase is
goi ng to be a 4% increase, which will be retroactive back to January 1,2009 and the
ARRA COLA increase is a temporary increase, whicb is going to be a 2.21% increase
wh ich will go in effective Ju ly I, 2009 though June 30, 2010.

_ _ staled that the Quality Improve funds are as listed: Eight Computer Work
~0il'!' 1 1 .303, seven printers S I, 115 .00, Eighteen Sman Boards S53, I1 6, Installation
for Eighteen Sman Boards S7,650, Eleven Children Computer tables $3,634, twelve
Science Centers with microscope and book shel ves 56,383, three air co nditions for buses
$4500, Eighteen Communication- Teleph.one Systems for class rooms 519,706, Building
Maintenance and Repairs at the Cottageville center $ 1500 and building ma intenance and
repairs for th e Health Services Center 512,030 which a total of $120,937.00

• • stated that the lotal budget is 522 1,988 and the Non Fed share is $55,497 which
we are requesting a waiver for. After a lengthy discussio~_ made the motion
to accept the Head Start Pennanent COLA, the lemporary~A and the Quality
Improvement . _ _ seconded the motion. The motion carried.

_ _ slaled that he is fighting had to get the weatherization program back into
rof~ Hampton counties and his reason is because Colleton and Hampton coun ti es
hom es arc not being work on and he stated that he can't even get a repon fro~
_        Ion th e houses that they have completed in Ham plon._~ s~t he
~e Hamplon county council meeting and they stated th~uscs in that
area Ihllt needs 10 be repaired.
                                                                                   Page 10 of 10




He stated thaI if Lowcountry CAA gets the program b3Ck we would make sure thaI the
ho uses in Collelon and Ham pton counties are repaired properly. He stated that Ihey will
hire a Weatherization Coordinator, secretary and workers to do the repairs on the homes.

               Slated that the Head Slart repon from the finance department has been
                   two weeks ago and all we are waiting for is _ _ repon once
                 report is completed it can be submitted to Atl ~
                     the motion lhat_ _ needs to submit her
                     Director by Wemr-~26, 2009 and that
                                                                        a
                                                                        f rt   t



and carried.
               immediately submi t the full package to Atlanta. The   II             nded


Executive Session

During E:tecutive Session the Personnel Committee presented the potential applicants for
the Eltecutive director's position to the full board. After a lengthy diSCUSS
                                                                            . ·O . .
          Chairperson of me Personnel Committee made a motion to hit
               the new Executive Dire<:tor of LoWCOUlltry Community Ac             ,
    clir.ot;;;, .'"''''. 2009. ~ndcd the motion.            The motion carried. No
other actions were taken.

A motion was made to adjourn. The motion was seconded and carried.

Meeting adjourned.

Respectfully submitted,



Adreen D. Shider
Administrative Assistant
